LEGAL P INTERS
5614 Connecticut Avenue, NW #307
Washington, DC 20015

202-747-2400
202-449-9565 Fax
LegalPrinters.com

July 22, 2020
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE 19-930: CIC SERVICES, LLC v. INTERNAL REVENUE SERVICE, ET AL.
Dear Sir or Madam:
As required by Supreme Court Rule 33.1(h), I certify that the Brief of the
Institute for Free Speech as Amicus Curiae in the case referenced above contains 3,891
words, excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Sincerely,

Jack Suber, Esq.
Principal

LISA KAY NICHOLSON
Notary Public
State of Maryland
Montgomery County
My commission sp. October 12, 2022

Sworn and subscribed before me this 22nd day of July 2020.

c-4.ey

(-17,6icLon

